BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Reply Brief for Petitioner in 19-1352,
Western Oilfields Supply Company, Doing Business as
Rain for Rent v. Secretary of Labor and Federal Mine
Safety and Health Review Commission was sent via
Next Day Service to the U.S. Supreme Court, and 3
copies were sent via Next Day Service and e-mail to
the following parties listed below, this 21st day of
September, 2020:
Jeffrey Wall
Acting Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondents
Byron J. Walker
Counsel of Record
Tim Boe
Rose Law Firm,
A Professional Association
120 East Fourth Street
Little Rock, Arkansas 72201
(501) 375-9131
tboe@roselawfirm.com
bwalker@roselawfirm.com

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Joseph Christopher Hall
Rose Law Firm,
A Professional Association
P.O. Box 4800
Fayetteville, Arkansas 72702
(479) 695-1330
jhall@roselawfirm.com

Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 21, 2020.

n";'nna J. wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

L

